<html>
<title> - ENSURING EFFECTIVE PREPAREDNESS RESPONSES AND RECOVERY FOR EVENTS IMPACTING HEALTH SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   ENSURING EFFECTIVE PREPAREDNESS RESPONSES AND RECOVERY FOR EVENTS 
                       IMPACTING HEALTH SECURITY

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2011

                               __________

                           Serial No. 112-12

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-222                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Vacancy
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     3

                                Witness

Dr. Alexander G. Garza, Assistant Secretary for Health Affairs, 
  Chief Medical Officer, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                                Appendix

Questions From Chairman Gus M. Bilirakis of Florida..............    19


                    ENSURING EFFECTIVE PREPAREDNESS 
                   RESPONSES AND RECOVERY FOR EVENTS 
                       IMPACTING HEALTH SECURITY

                              ----------                              


                        Thursday, March 17, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Richardson, and Clarke.
    Mr. Bilirakis. Good afternoon. The Subcommittee on 
Emergency Preparedness, Response, and Communications will come 
to order.
    The subcommittee is meeting today to receive testimony from 
Dr. Alexander Garza on how the Department of Homeland 
Security's Office of Health Affairs is working to provide 
health security for our Nation.
    I now recognize myself for an opening statement.
    Last week the subcommittee held a hearing to examine FEMA's 
capacity to ensure effective preparedness and response to 
terrorist attacks, natural disasters, and other emergencies. I 
now look forward to having a similar conversation with the 
Assistant Secretary to ensure that the Office of Health Affairs 
is meeting its mandates with respect to preparedness, response, 
and recovery and thereby doing its part to meet the Nation's 
health security challenges.
    While this hearing has been scheduled for some time, it is 
particularly timely in light of the recent catastrophe in 
Japan. Our thoughts are with the Japanese people as they 
continue to respond to this tragedy and begin to recover. Of 
course, the United States stands ready to assist our ally in 
this difficult time.
    As we work to assist Japan, we must also reflect on our own 
level of preparedness and learn from Japan's experience so we 
can be better prepared here in the United States.
    The Office of Health Affairs' mission is to provide health 
and medical expertise in support of the Department's mission to 
prepare for, respond to, and recover from all hazards impacting 
the Nation's security; that is, to protect our health in the 
case of a National incident with health consequences.
    This is a valid mission that I think is not always well 
understood, but OHA's accomplishments are real. For example, 
during the 2009 H1N1 influenza outbreak, the Assistant 
Secretary briefed the Secretary and other DHS leaders on 
matters such as where the flu was spreading, whether closing 
the border with Mexico could slow its progression, and how DHS 
could mobilize resources to assist in the response.
    Staff in the workforce division are working to ensure that 
emergency medical personnel, such as EMTs with the Border 
Patrol, are adequately credentialed when they cross State lines 
in the course of their duties. OHA operates the BioWatch 
program, a deployment of detectors in more than 30 metropolitan 
areas designed to detect aerosolized agents of bioterrorism.
    The subcommittee looks forward to learning more about these 
successes, as well as on-going challenges. I would particularly 
like to hear more about OHA's work with interagency partners on 
the development, procurement, and distribution of medical 
countermeasures. This is a topic that this subcommittee will 
consider more specifically in the future, but I would like to 
begin our conversation today.
    The President's fiscal year 2012 budget request includes 
$161 million for OHA's affairs, a $21 million increase over 
fiscal year 2011, the continuing resolution. The BioWatch 
program accounts for the vast majority of this spending.
    While BioWatch is not the only activity for which your 
office is responsible, it is however the most expensive. The 
request includes $115 million for BioWatch, $25 million of 
which will go towards operational testing of Next Generation 
technology. If successful, this new system would enable a 
drastic decrease in detection time from the current 12-36 hours 
to 4-6 hours. It would also provide detectors that could 
function reliably indoors. Such milestones would be important 
advances, but I and other Members are concerned that the 
timeline for deployment has been repeatedly delayed.
    I am also concerned that the testing phase includes only 
one type of technology. There have been two viable competitors 
going through the process, and now you are down to one before 
you have even gotten to the field and operational testing and 
evaluation.
    I look forward to hearing from you about why this is the 
case and how we can increase competition to ensure that at the 
end of the day we have a robust BioWatch program with the best 
technology, CONOPS, and buy-in from the communities in which it 
is deployed.
    Finally, I would like to discuss the National 
Biosurveillance and Integration System, NBIC, which seeks to 
achieve the important goal of fusing many inputs of 
biosurveillance data to provide early detection of an Event of 
National Significance, such as an anthrax outbreak.
    The President's budget requests $7 million for NBIC, an 
amount consistent with historical funding levels for this 
program. While an effective National biosurveillance capability 
is an important component of preparedness and response, the 
necessary cooperation from other Federal agencies remains 
lacking and has led to an ineffective NBIC that has not met its 
statutory mandates.
    Continued funding at this level under the current operating 
scheme will be money wasted. While we are pleased that DHS has 
recognized the shortcomings of NBIC and has developed a plan to 
confront its challenges, I believe we really need to see a 
demonstrable increase in value prior to supporting on-going 
appropriations.
    With that, I look forward to hearing from Dr. Garza on his 
budget request and all the activities and challenges of his 
office.
    I now recognize the Ranking Minority Member, Ms. Richardson 
from California, for any statement she may have. You are 
recognized.
    Ms. Richardson. Thank you, Mr. Chairman. Good afternoon. I 
would like to thank Dr. Garza for appearing before this 
committee today and expressing this committee's deep gratitude 
for your current and previous service to our country.
    But let me start by saying that our thoughts and of course 
our prayers, and I join with the Chairman, as we continue to be 
thoughtful of our friends in Japan as they search for 
survivors, or continue I should say, and recover from one of 
the greatest disasters that was certainly known in Japan and 
maybe in the world.
    I supported the President's decision to work in an 
expeditious way to assist with the relief and efforts by 
deploying U.S. military and FEMA's urban search and rescue 
teams and any other assets that might be required in the 
region.
    This disaster has caused damage to areas in Hawaii and in 
my own home State of California, and it demonstrates how one 
emergency can spiral into others. The effects of the earthquake 
and the subsequent tsunami are now prompting a public health 
emergency, including concerns regarding the radiation seeping 
from nuclear reactors. It is a truly a tragedy of historic 
proportions, and one that we all must learn from in order to 
prepare in our own home bases.
    As a representative of the 37th Congressional district, I 
understand the potential effects of earthquakes and tsunamis 
that could have on cities, neighboring areas, and our 
infrastructure. In my district alone, we have various oil 
refineries that produce more than 1 billion barrels per day. We 
are home to a number of gas treatment facilities, petrochemical 
facilities, all that abut against the Nation's largest ports, 
which aside from all of that going on, when you consider the 
fact that we are in due proximity to the Pacific ocean and the 
San Adreas fault, preparations still needs to be in order.
    I am committed to ensuring that we are doing everything we 
can to learn from and assist in what has occurred in Japan. 
Therefore, today's hearing can provide us with a better 
understanding on how well DHS is prepared to respond to the 
health effects of both natural and man-made disasters.
    As you know, the previous administration's reorganization 
efforts created the Office of Health Affairs. Since its 
founding, there have been concerns, though, however, on how 
well OHA fits within the Department's enterprise.
    Dr. Garza, during your confirmation hearing, you stated 
that OHA is a young entity and in many ways a work in progress. 
In these tough economic climate times, it is important that 
each homeland security investment is dedicated to programs that 
are effective, efficient, and not duplicative. Unfortunately, 
there have been many programs within OHA's responsibilities 
that have not always met those standards.
    The BioWatch program, which is vital to our preparedness 
effort, has suffered from some management issues in the past as 
well as not having the ability of upgrades and the 
developmental delays of the Gen-3 technologies. A more glaring 
demonstration of some of our growing pains has been the 
inability to fully establish the National Biosurveillance and 
Integration Center. The GAO found that the NBIC relied upon 
publicly available internet information. This is completely 
opposite to the vision and intention of the Congress.
    Finally OHA's workforce protection efforts appears to mimic 
those designated for the DHS Office of Safety and Environmental 
Programs. We must do all that we can to protect DHS staff to 
ensure that they can protect the Nation, but duplicating 
efforts are not effective.
    Dr. Garza, I look forward to hearing your plans today, your 
plans to address the concerns that we have laid out in this 
committee, and also hopefully to share with us OHA's mission 
and how you plan on expanding that further.
    With that, I look forward to your testimony. Thank you for 
being here.
    Mr. Bilirakis. Thank you, Ms. Richardson. Appreciate it 
very much. Other Members of the subcommittee are reminded that 
opening statements may be submitted for the record.
    I am pleased to welcome Dr. Garza before the subcommittee. 
Dr. Garza is the Assistant Secretary for Health Affairs and 
Chief Medical Officer for the Department of Homeland Security. 
He manages the Department's medical and health security 
matters, oversees the health aspects of contingency planning 
for all chemical, biological, radiological, and nuclear 
hazards, and leads a coordinated effort to ensure that the 
Department is prepared to respond to biological and chemical 
weapons of mass destruction.
    Prior to joining the Department in August 2009, Dr. Garza 
spent 13 years as a practicing physician and medical educator. 
He most recently served as Director of Military Programs at the 
ER One Institute at Washington Hospital Center and has served 
as the Associate Medical Director of the Emergency Medical 
Services for the State of New Mexico and Director of the EMS 
for the Kansas City, Missouri Health Department.
    Dr. Garza holds a medical degree from the University of 
Missouri, Columbia School of Medicine, a Master's of Public 
Health from the St. Louis School of Public Health, and a 
Bachelor of Science in biology from the University of Missouri, 
Kansas City.
    Prior to earning his medical degree, he served as a 
paramedic and an emergency medical technician. He is a fellow 
in the American College of Emergency Physicians and a member of 
the American Public Health Association.
    Welcome, Dr. Garza. Your entire written statement will 
appear in the record. I ask you to summarize your testimony. 
You are now recognized, sir.

 STATEMENT OF ALEXANDER G. GARZA, MD, MPH, ASSISTANT SECRETARY 
   FOR HEALTH AFFAIRS, CHIEF MEDICAL OFFICER, DEPARTMENT OF 
                       HOMELAND SECURITY

    Dr. Garza. Thank you and good afternoon, Chairman 
Bilirakis, Ranking Member Richardson, and distinguished Members 
of the committee. Thank you for inviting me to testify before 
you today.
    It is a privilege to be here to discuss the Office of 
Health Affairs and my strategic priorities. OHA serves as the 
principal authority for all medical and health issues for the 
Department of Homeland Security. We look at health through the 
prism of National security, providing medical, public health, 
and scientific expertise in support of the Department's mission 
to prepare for, respond to, and recover from all threats.
    Our responsibilities include serving as the principal 
adviser to Secretary Napolitano and FEMA Administrator Fugate 
on medical and public health issues. We lead and coordinate 
biological and chemical defense programs. We provide medical 
and scientific expertise to support DHS preparedness and 
response efforts, and we lead the Department's workforce, 
health protection, and medical support activities. OHA, 
furthermore, serves as the point of contact for State and local 
governments on medical and public health issues for the 
Department.
    Our role is indeed unique within the Federal Government. We 
are the only health office broadly tasked to bridge the divide 
between security threats and risks and health issues. We focus 
on how the health impacts of disasters and catastrophic events 
will affect our homeland security operations and our workforce 
health protection measures. We also work across multiple 
disciplines. We take a one-health approach in order to fully 
understand how health issues affect the security of the 
homeland.
    Almost all issues involving health and catastrophic events 
are multi-factorial and complex. They do not fit cleanly into a 
single ownership model. This is where DHS and OHA bridge the 
different disciplines needed to develop a complete picture.
    We don't have to look far to see the significance of how 
having a robust and effective preparedness and response system 
protects the Nation. Look at the headlines over the past year 
and what dominated the news cycle. A year and a half ago, 
everyone was concerned with the H1N1 pandemic. After that came 
Haiti. After that came Deepwater Horizon. As both of you have 
mentioned today, the unfolding disaster in Japan.
    Each threat, whether it is overt or covert, intentional or 
accidental, man-made or naturally occurring, brings with it its 
own health and homeland security challenges, and it is my 
mission to make sure that the homeland security is able to meet 
its mission of a safe and secure homeland where the American 
way of life can thrive.
    I want to thank this committee for the opportunity to 
testify. I look forward to answering any questions you may 
have.
    Thank you.
    [The statement of Dr. Garza follows:]
                Prepared Statement of Alexander G. Garza
                             March 17, 2011
    Chairman Bilirakis, Ranking Member Richardson, and distinguished 
Members of the committee: Thank you for inviting me to testify before 
you today. It is a privilege to be here to discuss my strategic 
priorities and the fiscal year 2012 budget for the Office of Health 
Affairs.
    I would like to begin by providing an overview of the mission of 
the DHS Office of Health Affairs (OHA) and our role within the Homeland 
Security Enterprise. OHA serves as DHS's principal authority for all 
medical and health issues. We look at health ``through the prism of 
National security,'' providing medical, public health, and scientific 
expertise in support of the DHS mission to prepare for, respond to, and 
recover from all threats.
    OHA's responsibilities include serving as the principal advisor to 
the Secretary and FEMA Administrator on medical and public health 
issues; leading and coordinating biological and chemical defense 
programs; providing medical and scientific expertise to support DHS 
preparedness and response efforts; and leading the Department's 
workforce health protection and medical support activities. OHA also 
serves as the primary DHS point of contact for State and local 
governments on medical and public health issues.
    To execute these responsibilities, we developed a Strategic 
Framework that outlines our mission space within the Department, and 
enumerates four overarching goals: (1) To provide expert health and 
medical advice to DHS leadership; (2) to build National resilience 
against health incidents; (3) to enhance National and DHS medical first 
responder capabilities; and (4) to protect the DHS workforce against 
health threats.
    Today I will discuss a number of initiatives that help us achieve 
our goals and contribute to the health security of the Nation. I will 
also highlight how our fiscal year 2012 budget request supports these 
efforts.
                               biodefense
    OHA operates, manages, and supports the Department's biological 
defense and surveillance programs. Our work is primarily focused on the 
operational areas of detection and surveillance, as well as helping to 
build preparedness at the State and local level.
Detection
    One of our primary responsibilities is to mitigate the consequences 
of biological incidents through early detection. OHA uses early 
detection as a tool to make the Nation more resilient against health 
events. Prompt identification of a biological event has the potential 
to improve the delivery of medical countermeasures and save lives.
    OHA's BioWatch program is a Federally-managed, locally-operated, 
Nation-wide bio-surveillance system designed to detect the intentional 
release of aerosolized biological agents. This program deploys 
collection devices and analytical capability in more than 30 high-risk 
metropolitan areas throughout the Nation. BioWatch provides public 
health experts with a warning of the presence of a biological agent 
before exposed individuals develop symptoms of illness. This ``detect-
to-treat'' approach provides public health officials with an 
opportunity to respond to the release of a biological agent as quickly 
as possible in order to mitigate the potentially catastrophic impact on 
the population.
    In addition to providing critical early detection capabilities, the 
BioWatch program has built a collaborative capacity that did not 
previously exist among the Federal Government, State and local public 
health, and emergency management. This partnership provides a model of 
interaction for future endeavors.
    OHA is committed to providing cutting-edge, technically robust 
early detection solutions. The fiscal year 2012 budget request supports 
continued operations for our deployed detection systems and includes an 
increase from current services to fund the start of operational testing 
and evaluation of the Generation-3 automated detection system. The Gen-
3 system will advance current detection technology by providing an 
automated detection capability that is expected to significantly reduce 
the time between a release of a biothreat agent and confirmation of 
that release by BioWatch technology. Current detection capabilities, 
termed Gen-1/2, consist of outdoor aerosol collectors whose filters are 
manually retrieved for transport to and subsequent analysis in a 
Laboratory Response Network (LRN) facility. This system, while 
extremely beneficial, is labor-intensive and the results may not be 
available until 12-36 hours after the release of a biological agent has 
occurred. The transition to an automated detection system (Gen-3) will 
improve the time to detect to 4-6 hours, increase population coverage, 
and provide greater overall cost effectiveness.
Biosurveillance
    Another key element to an overarching biodefense framework is 
biosurveillance. OHA is focused on developing and maintaining an 
integrated, real-time, multidiscipline surveillance picture.
    To that end, OHA manages the National Biosurveillance Integration 
System (NBIS)--a consortium of Federal partners that was established to 
rapidly identify and monitor biological events of National concern. 
NBIS collaborates among Federal and State partners to collect, analyze, 
and share human, animal, plant, food, and environmental biosurveillance 
information. The National Biosurveillance Integration Center (NBIC) 
integrates this information from Federal agencies and State, local, 
private sector, and international sources to provide early warnings of 
a possible biological attack or pandemic. By identifying those bio-
events that have reached reporting thresholds and publishing reports 
using the Biosurveillance Common Operating Picture (BCOP)--which is 
currently being piloted in four States--the NBIC and NBIS enhance 
recognition of biological events of National concern, reduce response 
time, and promote effective response.
    While the NBIC and NBIS have been successful in helping us to 
achieve our biosurveillance mission, there is still much more work to 
do in order to achieve a true National capability. OHA is currently 
working with our partners and stakeholders to continue to enhance and 
improve the NBIC while successfully meeting the statutory requirements 
and Congressional intent. We will continue to work with our 
stakeholders to increase collaboration and data integration, improve 
analysis, and ensure high-quality and timely reporting. The fiscal year 
2012 budget request supports our ability to maintain current efforts, 
and enhance the system in this manner.
                            chemical defense
    OHA leads the Department's coordinated efforts to protect against 
high-consequence chemical events. OHA integrates chemical defense 
expertise into National planning and partners with State and local 
jurisdictions to build capabilities and develop resilience for high-
consequence chemical events.
    OHA's Chemical Defense Program (CDP) provides health and medical 
expertise related to chemical preparedness, detection, response, and 
resilience--all critical to a comprehensive approach to protect against 
a chemical attack. Technologies and operations already employed at the 
Federal, State, and local level are being leveraged to create a 
comprehensive chemical defense framework. The chemical defense 
framework will create synergies and efficiencies among the many on-
going, but currently separate, chemical defense efforts. This framework 
will integrate DHS's current capabilities as well as strengthen 
relationships both horizontally and vertically amongst all Federal, 
State, local, and Tribal chemical defense stakeholders.
    The Baltimore Demonstration Project is an example of a current CDP 
project that is focused on enhancing chemical defense preparedness and 
response by emphasizing partnerships with Federal, State, and local 
stakeholders. The fiscal year 2012 budget request will allow OHA to 
continue to provide health and medical expertise related to chemical 
preparedness, response, and resilience in support of an integrated 
chemical defense framework to protect against high-consequence events.
                          building resilience
    OHA provides health and medical expertise to planning and exercise 
efforts that advance National preparedness and response capabilities 
for threats that have potential health consequences. The Anthrax 
Response Exercise Series (ARES), which we completed in partnership with 
FEMA last fall, is an example of this work. The workshops included 
Federal, State, regional, and local public health and emergency 
management professionals and were designed to help coordinate roles, 
responsibilities, and critical response actions following a wide-area 
anthrax attack. This year, as well as in fiscal year 2012, we plan to 
continue to build on the success of ARES by conducting workshops in 
additional high-threat cities.
    OHA works directly with State and local leaders to develop 
capabilities to respond to health threats. We have done this by 
expanding local public health participation in, and coordination with, 
the National network of fusion centers; and by developing guidance for 
health and medical experts to better access Federal grant and training 
programs to improve public health preparedness capability.
    Additionally, OHA works to provide Department leaders with 
appropriate subject matter expertise both in steady state and during 
events which encompass public health, medicine, food defense, 
agricultural security, veterinary defense, pandemic influenza 
preparedness, and other threats. Our Food, Agriculture, and Veterinary 
Defense (FAVD) Branch initiative leads the coordination of the 
Department's programs to ensure the security of our Nation's food, 
agriculture, human and animal health. FAVD experts support the 
Department's efforts to enhance preparedness through capabilities 
development and facilitate the integration of the emergency management 
services community into Federal, State, local, territorial, and Tribal 
food and agriculture sector disaster preparedness activities.
                       emergency medical services
    OHA coordinates the Department's medical first responder 
activities. This includes providing support to DHS personnel who 
perform operational medicine, including emergency medical services 
(EMS). DHS has thousands of medical personnel deployed throughout the 
country who provide care for wide-ranging and often remotely deployed 
personnel, from Border Patrol agents in the Southwest desert to 
personnel engaged in counternarcotics and counter-smuggling operations. 
OHA supports these personnel by developing health guidance and policy; 
providing medical countermeasures; collaborating with the DHS 
Management Directorate to provide occupational health protection for 
use in dangerous work environments; and facilitating health screening 
programs to help ensure that responders are able to support the 
Department's missions while minimizing health threats.
                      workforce health protection
    Finally, OHA works each day to build resilience within the 
Department and protect the DHS workforce against health threats by 
implementing activities that promote employee resilience. Initiatives 
include the development of medical guidance for DHS personnel, the 
provision of standards and guidelines to DHS medical care providers, 
and the oversight of DHS quality improvement and medical training. 
Additionally, we provide guidance, protocols, and support to DHS 
components and offices for medical countermeasure storage and 
dispensing.
    The fiscal year 2012 budget request includes additional funding to 
support the DHS Together employee and organizational resilience 
initiative to ensure that DHS employees have the tools and resources 
necessary to manage the stresses inherent in their occupations. DHS 
Together was introduced to employees a little over a year ago. During 
the initial training effort, approximately 190,000 employees received 
training about resilience and participated in a dialogue about methods 
to improve the workplace. Moving forward, OHA will utilize an 
overarching resilience framework that will unify existing activities 
and provide a platform for leadership to build a culture of support. 
This initiative will have a direct impact on the resiliency and 
wellness of the DHS workforce and provide the resources and information 
necessary to effectively manage the stress associated with work. The 
annual planning, production, and distribution of resilience training 
and information on a Department-wide scale will maximize participation 
and increase the program's ability to effectively improve the 
resilience of the workforce.
                               conclusion
    Thank you again for the opportunity to testify today regarding the 
strategic objectives of the Office of Health Affairs and the fiscal 
year 2012 budget request. I look forward to your questions.

    Mr. Bilirakis. Thank you, Dr. Garza.
    I recognize myself for 5 minutes for questions.
    As the Chief Medical Officer for DHS and adviser to FEMA, 
which is responsible for guiding State and local preparedness 
and response, what would your message to the public be about 
the appropriate use of potassium iodide in any nuclear event?
    Dr. Garza. Yes, sir. FEMA has worked diligently on 
addressing the nuclear issues surrounding homeland security, 
and that involves whether it is an accidental release, a man-
made release, or an intentional release of nuclear material. We 
focus on the whole-picture consequence management, of which 
potassium iodide is part of that. But what we would truly like 
to focus on, and I think Administrator Fugate has said this 
well, is developing a whole-of-community response, of which 
potassium iodide would be part of, but really developing the 
community aspect of how we deal with disasters since we all 
know that all disasters are local.
    Mr. Bilirakis. FEMA has a formal role in regulating off-
site emergency plans and preparedness in support of nuclear 
power plants to ensure appropriate protective measures can be 
taken in the event of a radiological emergency to protect the 
health and safety of the public. Is OHA working to advise 
FEMA's guidance and review of State and local response plans 
from a health perspective? If not, why? What entity is 
providing the expertise to FEMA, if not OHA?
    Dr. Garza. As I mentioned in my opening statement, we are 
the principal health adviser for FEMA. So in that respect I do 
have two physicians that work with FEMA on exactly these 
issues, amongst a multitude of issues, as well as a public 
health service officer who works with their day-to-day 
operations.
    So we are involved in every aspect of what FEMA does, 
whether it is exercising, whether it is planning, whether it is 
going out into the communities and exercising as well. So we 
are very much involved with the aspects of what they do.
    Beyond that, the rest of the office is also included in the 
development of planning for responses such as this.
    If I can shift a little bit and use for example our 
biological planning programs, we really view it as a whole-of-
DHS approach where it is not just FEMA, but it also involves 
our office and it involves our policy offices as well as our 
operational components. But we really view it as a whole-of-DHS 
approach to planning as well.
    Mr. Bilirakis. Thank you. My next question, and I mentioned 
this to Administrator Fugate last week, I am concerned that the 
President's budget proposes to eliminate the Metropolitan 
Medical Response System Grant Program as a stand-alone program, 
and to instead roll it into the State Homeland Security Grant 
Program. MMRS provides funding to enhance the ability to 
respond to mass casualty incidents. While grants are not your 
personal responsibility, I know that OHA has an interest in 
ensuring that States and localities have the tools they need to 
prioritize medical response capabilities. Do you feel that 
consolidation is the right approach?
    Second, if the grants were to be consolidated, how will 
your office work with FEMA to ensure that the medical 
preparedness remains a priority within the larger grant program 
and that States and localities do not lose the capacity they 
have gained to date under the program?
    Dr. Garza. Yes, sir. So we do work with them on the grants 
program, providing the advice on how grant money should be 
spent for public health infrastructure, for improving public 
health response to natural disasters. We do have natural allies 
over there in Mr. Serino and Mr. Fugate because I truly do 
believe they understand the public health aspects of disasters. 
I can say that because Mr. Serino comes from the Public Health 
Department in Boston.
    Furthermore, the grant alignment has always been an issue 
between HHS and DHS and how the money is divided up and spent 
on public health measures. I can only speak from my experience 
in working with both of those entities that there is a renewed 
focus and I think a very active effort to make sure that those 
programs, those grant programs between DHS and HHS are becoming 
more aligned, and so we can identify where the gaps and seams 
are in order to support public health and emergency responders 
with grant dollars.
    Mr. Bilirakis. Thank you very much.
    I yield to the Ranking Member, Ms. Richardson, for 5 
minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    My first question, Dr. Garza, is the Government 
Accountability Office noted that the public health response 
involved Federal shared responsibilities, and yet it is unclear 
how these roles would really work in practice. It was 
recommended that DHS and HHS conduct training and exercises to 
ensure that the Federal leadership roles are clearly defined 
and understood. Has that happened as of yet?
    Dr. Garza. It has happened, and it has happened on a couple 
of different platforms. As you may know, our office in 
conjunction with FEMA did conduct a number of exercises around 
the country, discussing biological release incidents. Those 
were mostly geared towards the State and locals, but we did 
have Federal partners there as well. The culmination of those 
events were a Federal workshop, which was here in Washington, 
DC, and it involved multiple different partners across the 
Federal Government. So it wasn't just DHS and HHS; it also 
involved our partners within DHS such as TSA, but also partners 
outside such as EPA and other people that we know are going to 
play a significant role in any large-scale response.
    Ms. Richardson. Who would ultimately be the final decision-
maker?
    Dr. Garza. The decision-maker for?
    Ms. Richardson. If an incident occurred and all these 
groups are together.
    Dr. Garza. I think it really depends on what the event is. 
So as we saw a couple of years ago with the H1N1 pandemic, 
clearly that was a public health issue. The President was 
correct in putting HHS at the lead for that.
    So I think it very much depends on the situation at hand. 
Clearly if there is a large event in the country that involves 
multiple disciplines, it would have to be argued one way or the 
other which department was going to be the lead agency.
    Ms. Richardson. So have we argued that?
    Dr. Garza. There are different Homeland Security 
Presidential Directives that direct who is in charge of large 
events. So HSP-5 states that the Secretary of Homeland Security 
would be in charge of coordinating a large-scale Federal event.
    Ms. Richardson. Is that clear to everyone?
    Dr. Garza. As I discuss it with other people, I haven't 
heard any arguments one way or the other.
    Ms. Richardson. I am not trying to be difficult. I have 
been in several circumstances where you have got multiple 
people who have their various competing interests, and it is 
important to ultimately have a final who is in charge here. 
Because we have had that problem before.
    Dr. Garza. Yes, ma'am.
    Ms. Richardson. I did want to associate myself with the 
remarks of the Chairman of my concerns of consolidating the 
Metropolitan Medical Response System Grant Program, and I know 
what your answer was, but I do want to express that I am 
concerned about the consolidation of that program. When Mr. 
Fugate was here, I suggested if we were going to go into the 
sort of consolidated idea, that there would have to be some 
sort of commitments in writing from the State and local 
agencies that if they chose to then direct the majority of 
their funds to another area than this area, that they would 
have to be able to document that the concerns and the needs of 
this particular section had in fact been met. He agreed to work 
on some sort of language to that effect. So we look forward to 
those issues.
    In terms of the development of OHA, over the past few years 
your existence, roles, and responsibilities have shifted and 
expanded. As a result, the office has become reorganized and 
kind of fits into several different priorities, as we have seen 
them, being biosurveillance and workforce resilience.
    What is your overall mission for OHA and how does OHA 
assert your authority despite its statutory limits and its 
position within the Department? Are DHS agencies compelled to 
consult with you regarding health-related issues before 
implementing policies related to the medical and public health 
issues?
    Dr. Garza. The missions within our office fit into what I 
feel are one of four different sets. One is of course to 
support the Secretary on public health issues. You have already 
mentioned biosurveillance, but that would fit into a broader 
picture of biodefense. But we really view that as an all-
hazards, so we include chemical and other issues as well.
    You correctly pointed out workforce health protection as 
one of our main tenets. Then the fourth would be working with 
our first responders around the country as well as within DHS.
    I do feel that the Department does look towards us to get 
public health opinions and medical opinions on issues that are 
on-going for DHS. So, for instance, with the incident unfolding 
in Japan, we recently issued guidance for our workers who are 
deploying there, specifically our USAR teams, as well as 
guidance for some of our workers that will be working back here 
in the continental United States for questions that may come up 
about contamination and other issues.
    Ms. Richardson. I yield back the balance of my time.
    Mr. Bilirakis. Thank you. Now I recognize the gentleman 
from Michigan, Mr. Clarke, for 5 minutes.
    Mr. Clarke. Thank you, Mr. Chairman.
    Mr. Garza, thank you for being here. I am going to ask a 
couple of questions, but let me give you the context. I 
represent a metro Detroit area, the Detroit border sector. It 
is a pretty large area. Only 4 miles of it, though, is under 
operational control. Our State is surrounded by the Great 
Lakes, one of the largest bodies of fresh water in the world. 
Our Detroit border, much of it, is right in the middle of the 
water. We also have a large water and sewage treatment plant.
    Now, for all of these reasons, I am concerned that our 
border sectors are vulnerable to an attack on a mass scale with 
chemicals or biological or radiological or nuclear weapons. No. 
1, we don't have enough trained health professionals to be able 
to respond to such an attack, to help people recover from it, 
and to prevent mass casualties and to prevent people from being 
sick as a result of the attack.
    To give you an example, in Detroit, our hospitals have to 
hire nurses from Canada and they have got to come from Canada 
to Detroit every day to work because we don't have enough 
trained nurses in the city of Detroit.
    How do you think that we could best have the staffing 
capacity to respond to such an attack in the event that it 
could happen? That is one question.
    My other question has to deal with the Homeland Security 
Presidential Directive No. 18. There I had questions on how we 
can make sure that we have the adequate inventory of medical 
countermeasures needed to respond to such a widespread attack.
    I might as well just give you all of my sub-questions 
related to that. For example, how do we stockpile the 
antibiotics that we would need for anthrax? The last point 
related to that Presidential Directive, this relates to jobs, 
very important to metro Detroit and very important to our 
country. Do you have any thoughts on how the Department can 
work more effectively with the biotech and pharmaceutical 
sectors to help develop those new countermeasures that are 
referred to in Tier II of that Presidential Directive?
    I know that is a lot. But, No. 1, we need the people to be 
able to help respond to an attack in case it happens. In order 
to prevent one, and to prepare us for it, we need to have the 
medical countermeasures available; and then how do we build a 
capacity to produce the new ones that we need to be effective 
in the future?
    Dr. Garza. Thank you. Let me try to tackle the staffing 
question first. Of course I am not going to be able to come up 
with nurses and doctors overnight, but recognizing that the 
health care system in the United States is very stressed, as it 
is right now across the country, but I think this gets back to 
your original point, which is preparedness, and preparedness 
doesn't merely just involve the health care sector, it involves 
multiple different public services as well as private 
industries in the community.
    This brings me back to my whole-of-community point where if 
there is a disaster, it really is going to take a whole-of-
community effort because, as you adequately stated, the health 
care sector is already under tremendous strains. If you threw a 
catastrophic event on top of that, it is going to need help. 
The help is going to have to come from the community.
    As far as the medical countermeasures go, that is under the 
purview of the CDC through the Strategic National Stockpile on 
making sure that there are doses adequate for the American 
public. There are many different programs for storing 
countermeasures. The Strategic National Stockpile is National, 
but there are also State and local programs spread throughout 
the country.
    As far as procuring items that go into the stockpile, DHS 
has the responsibility to develop the threat and risk 
assessment for the country and give that to HHS, to BARDA, and 
say these are the things that we are worried about and we would 
like for you to develop countermeasures for these. BARDA then 
takes that request and then develops the countermeasures, 
interacting with just the people you are talking about, the 
pharmaceutical and the biotechnology industry.
    Above and beyond that, our Science and Technology Director 
does work with a lot of universities in developing technologies 
and other things for biological and chemical defense as well.
    Mr. Clarke. Thank you.
    Mr. Bilirakis. It looks like we have time for one more 
round, Doctor. So I am going to begin and recognize myself for 
another 5 minutes, and then we will go around.
    My question has to do with EMS credentialing. It has come 
to our attention that some of the DHS components that employ 
medical personnel, such as the Border Patrol, occasionally run 
into problems with State credentialing when they cross State 
borders in the course of their daily duties.
    How can the committee be helpful to ensure that the 3,000-
plus medical personnel within the Department have the 
credentialing coverage they need?
    I know this is so very important, so we are very 
interested. I am going to talk with the Ranking Member about 
this, too, on how we can be helpful, but we need some guidance 
from you.
    Dr. Garza. Yes, Mr. Chairman. That is an important 
question. As you mentioned, we have around 3,500 EMTs and 
paramedics who work in very difficult environments. The 
majority of our population of EMTs and paramedics work in very 
austere environments where health care is 4 hours away. A lot 
of times these are on the Southwest border where we have to 
move assets very quickly in order to accomplish the mission.
    Recognizing that medical licensure is a State's authority, 
we have had some issues of being able to move our assets 
quickly. To that end, we have tried to develop a system for EMS 
services throughout DHS, so not just focusing on Customs and 
Border Protection, but also our medics at Secret Service, with 
any of our other organizations, to develop a system where we 
can do training, education, licensuring, and credentialing, 
which you talked about, as well as addressing the issues of 
cross-border.
    We have also done an outreach to those States where this is 
mostly affected, which are mostly border States, to bring them 
to the table to say this is what we would like to do and are 
you comfortable with this, tell us what your concerns are 
because we would much rather have them feeling comfortable with 
what we need to do as an organization in moving our assets 
around. To date we have been very successful in discussing 
these issues with them, and a lot of them are very supportive.
    Now whether the solution comes from an agreement between 
the States or whether it comes from legislation at the Federal 
level to allow DHS medics to operate, much like Federal gun 
carriers do, from State to State, I think is open to 
discussion.
    Mr. Bilirakis. All right. What are the three most important 
components of the chemical, biological, radiological, and 
nuclear defense endeavor that OHA provides? How is this 
reflected in your budget request?
    Dr. Garza. Of course as you mentioned, our BioWatch program 
is a large part of our budget. It is a Nation-wide program, and 
I know a lot of people get fixated on the machinery of the 
BioWatch, but what I do want to impress upon the committee is 
that BioWatch is much more than a machine. It is a community of 
people that operate within the program. The real beauty I 
believe of BioWatch is bringing those different people 
together, and I think it exemplifies what DHS is, which is a 
community of people that are there for security. So of course 
BioWatch is a big part of what we do. We are committed to 
pushing the technology because we know that decreasing the 
amount of time for detection gives us more time to decide and 
to treat.
    In addition to that is our chemical defense program which 
we recently empowered to take a much more appropriate role, 
which is looking at more end-to-end strategies instead of just 
focusing on detection. Chemical is much different than bio, 
which is different than rad, and they each deserve their own 
attention.
    Last, I would focus on the biosurveillance picture. As you 
mentioned before, the National Biosurveillance Integration 
Center has had some challenges, and we understand that and we 
appreciate that. But what we have done is we have gone back and 
we have gone back to our customers that we integrate with 
within the system, and it is a system. It is not merely just a 
DHS-centric place. It really does have to involve the system. 
Recognizing that a system can only be built on trust, we have 
taken a step back and gone to our partners and said, what can 
we do to improve the trust between our organizations and what 
can we do to improve the analysis of data, to improve the flow 
of information, and what sort of value can DHS bring to you? So 
bringing it down from very DHS-centric and focusing more on the 
system is very important to us.
    Mr. Bilirakis. Thank you. My last question has to do with 
BioWatch, and I mentioned this in my opening statement, and I 
think you referred to it as well, Ms. Richardson.
    Your budget calls for an additional $25 million to support 
testing the next generation of BioWatch sensors, known as 
Generation-3. Considerable resources have gone into BioWatch, 
as you know, the development since President Bush announced the 
rapid stand-up of this capability in his 2003 State of the 
Union Address. Now more than 30 cities have these sensors 
deployed, and we wait for the faster and more efficient 
Generation-3 machines that will significantly reduce the time 
it takes to detect a bioterror attack. Of course, that is so 
very important. It will theoretically save lives, as I said, to 
have this rapid and automated capability.
    Will the Office of Health Affairs use the fiscal year 2012 
funds to work with State and local stakeholders to develop 
response protocols and comprehensive concepts of operation 
plans? These are critical elements, of course, of a successful 
BioWatch program that have been criticized for being absent 
from the architecture. That is my first question.
    Then why has it taken so long to get this new automated 
detection equipment developed and on-line? Does your 
acquisition strategy allow for spiral or incremental 
development; that is, getting technology out there, gain 
experience with it, and make upgrades and improvements?
    I know it is a long question.
    Dr. Garza. Thank you. Let me tackle the second question 
first.
    The acquisition strategy, I think, is very solid. There 
have been slips in getting it through the testing and 
evaluation, but I think the big picture to focus on here is 
what a tremendous leap in technology that we are talking about.
    This is first-in-world technology. No other industry, no 
other country, not DOD, is not doing what we are attempting to 
do with biological detection. We are basically taking something 
that is very technically concentrated and really scrunching it 
down into a box. We are talking about amplifying DNA of 
bacteria and looking for it, and this is not an easy project.
    With that being said, the testing and evaluation has done 
exactly what it is supposed to do, which is make sure that we 
are spending tax dollars wisely, that we are not going to spend 
money on a machine that doesn't work.
    The other side of that, and as you mentioned in your 
concept of operation side for the communities, is we have to 
make sure that this new technology is going to be right all the 
time. We cannot be wrong on either side of the coin. What that 
means is we can never miss a detection. So we can never miss an 
anthrax spore. We can never go off when there is no anthrax 
spore there because the ramifications of that are huge. You 
have seen how difficult it is to evacuate a city when 6 inches 
of snow fall. You can imagine how complicated it would be if we 
had a large-scale incident.
    So we take that very seriously and we are being very 
methodical in working through testing and evaluation. This is a 
first-in-kind technology. So yes, there is going to be some 
hiccups along the way, and we expect that. But overall, the 
testing and evaluation is going very well.
    The second part of your question on working with the 
communities, absolutely you are right. I tried to emphasize 
that previously by saying BioWatch is so much more than a 
machine. It is a community of people that understand 
biodefense. It is not just your public health people, but it is 
also law enforcement, it is your emergency responders. It is 
your EPA people, it is your public affairs people because, 
quite frankly, messaging is going to be huge in a bioevent.
    So we go out into these communities and we develop these 
concept of operations, and we are developing them now before we 
even consider deploying Gen-3 because we know what a huge issue 
this is going to be, and we want to make sure that the 
communities are comfortable with what we are doing, and, that 
we can take care of whatever concerns or questions they have, 
and make sure that this technology, as well as people that 
surround it, are able to do their job.
    Mr. Bilirakis. Thank you, sir. I appreciate those answers.
    Now I recognize Ms. Richardson for 5 minutes or so, since I 
took a little longer. You are recognized.
    Ms. Richardson. You are the Chairman. You can take as much 
time as you want.
    Mr. Bilirakis. I am going to hold you to that.
    Ms. Richardson. Absolutely.
    Dr. Garza, the budget request for the National 
Biosurveillance Integration Center at the Office of Health 
Affairs was cut from $13 million down to $7 million. This 
program has been what some would say almost a complete failure 
to date. We estimate that it would take a substantial 
investment to upgrade the subpar facilities at the Nebraska 
Avenue complex where the NBIC currently resides and to make it 
a viable program. Instead you are cutting the program nearly in 
half.
    Would you first of all please explain the reason for the 
cut?
    Dr. Garza. Of course we support the President's budget as 
proposed. Let me get back though to what NBIC should really 
focus on, and it really, I do not believe, should focus on 
infrastructure and buildings. I think that was part of the 
reason why it hasn't been successful so far, is that there was 
a lot of focus on technology. Of course technology can only get 
you so far. At the end of the day, what it really takes is 
interpersonal and trusted relationships. I know this from 
serving in the military. I know this from being a paramedic, I 
know this from being a medical adviser, that you have to know 
the person that is on the other end.
    So when we took a step back, what is it going--and the 
other reason is because data, although we would like to say we 
have a lot of real-time data, when it comes to bio, the data is 
very slow in coming because, if you remember, it has to come 
from that local provider to the State to any of different 
Federal agencies, and it has to be vetted all the way along. So 
data is very slow in moving. We cannot afford to wait. So what 
it really takes is a trusted environment where when people 
recognize these anomalies that are going on amongst the data, 
within a trusted environment, are able to talk to each other 
and say I am seeing this, what does it mean to you, and 
bringing that from multiple different points of view. They have 
to be able to trust that DHS is not going to take their data 
and display it somewhere without their okay, without them 
vetting their own data.
    Ms. Richardson. Dr. Garza, I am sorry. I only have--you 
have taken now 2 minutes and 15 seconds. My question is pretty 
specific. It originally had a budget of $13 million, you are 
suggesting to cut it to $7 million. Why? You danced around the 
idea it is buildings and now we are switching to talking to one 
another. If you can more specifically answer the question, and 
briefer because now I have used 2 minutes and 22 seconds.
    Dr. Garza. I apologize. The majority of that was an 
appropriation for a project that was working in the State of 
North Carolina which has been stripped out of the budget.
    Ms. Richardson. So what is happening in Nebraska?
    Dr. Garza. The Nebraska Avenue complex?
    Ms. Richardson. Yes.
    Dr. Garza. Current operations are going on in the Nebraska 
Avenue complex. It currently occupies real estate which is 
somewhat valuable to DHS because it is in a secure environment. 
So there are options going on on where we are going to move 
that center. But the budget cut was specifically for the North 
Carolina project.
    Ms. Richardson. Why do you feel that is not necessary 
anymore?
    Dr. Garza. I do feel that it is necessary to be reaching 
out with States and locals.
    Ms. Richardson. So why are we stripping it out?
    Dr. Garza. It was stripped out, I believe, through the CR. 
It was in the original 2011 budget, if I remember correctly. I 
can get back with you on that, ma'am, just to be sure we are 
not confusing numbers.
    Ms. Richardson. Okay. Then my last question, you started to 
get into people talking to each other, which I guess gets to 
the point of the inadequate participation that we know have 
occurred between the agencies. Would it be just a better 
solution to go ahead and zero out all of the funding and direct 
it to more viable programs?
    Dr. Garza. I do not believe that that would be a good 
option.
    Ms. Richardson. Why?
    Dr. Garza. The reason for that is because it would solidify 
the silos where datas live right now. It would not cure the 
problem of integrated biosurveillance.
    Ms. Richardson. So I would say to you, Dr. Garza, because 
now they are just ringing for votes, clearly due to the cuts 
that are being involved, whether it is CR or whether within the 
administration, there seems to be a perception of the viability 
and the effectiveness of the program. So if you could more in 
writing provide to us why this really needs to exist and what 
are you going to do to fix it, and what are we losing by 
cutting down to this point.
    Dr. Garza. Yes, ma'am.
    Ms. Richardson. Thank you. I yield back.
    Mr. Bilirakis. Thank you very much. Dr. Garza, thank you 
for the valuable testimony, and Members for their questions. 
The Members of the subcommittee may have some additional 
questions for you, and we ask you to respond to in writing. The 
hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 2:55 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

          Questions From Chairman Gus M. Bilirakis of Florida
                                biowatch
    Question 1a. The subcommittee is concerned to hear that OHA is down 
to only one viable competitor for Generation-3 BioWatch technology, 
after discontinuing testing of a second vendor's candidate technology. 
The problem appears to be a difference in interpretation of test 
results. This decision comes after the Science and Technology (S&T) 
Directorate invested over $35 million developing this vendor's 
technology.
    Why was this vendor discontinued, and were formal, written 
processes in place to determine that discontinuation was reasonable?
    Answer. The Department discontinued funding for one of two vendors 
competing in the BioWatch Generation-3 (Gen-3) Test, Evaluation, and 
Acquisition Program due to its failure to meet the acceptance criteria 
on a key performance parameter. Specifically, the Department's decision 
to not provide further funding was due to the vendor system exhibiting 
false positives when challenged with biological agents of concern based 
on the clearly stated requirements for automated performance. OHA as 
the Program Executive made the decision to not continue funding HSSSI 
through Phase I. This decision was briefed to and concurred with by 
Office of General Counsel (OGC), Office of Procurement Operations 
(OPO), Science and Technology (S&T) Testing and Evaluation/Standards 
and Acquisition Program Management Division (APMD) as well as the Under 
Secretary for Management. Given that a response to a bioterrorism event 
will result in significant disruption to society, any response must be 
predicated on the extremely accurate detection of a biological agent of 
concern.
    Question 1b. Was the decision validated by S&T or an independent 
assessment team?
    Answer. The Independent Test Activity (Los Alamos National 
Laboratory) conducted the test and provided the data. The data and 
analysis were reviewed by the BioWatch Program as well as the 
Operational Test Agent (the National Assessment Group, Office of 
Secretary of Defense, Under Secretary for Acquisition, Technology & 
Logistics). The summary of results was provided to members of the 
BioWatch Coordinating Committee. The BioWatch Coordinating Committee 
includes OHA, DHS Office of Procurement Operations, DHS Office of the 
General Counsel, the S&T Directorate Chemical/Biological Division, the 
S&T Test and Evaluation/Standards (T&E/Standards) Division, the DHS 
Office of Policy, and the DHS Acquisition Program Management Division 
within the Management Directorate.
    Question 1c. Do you believe that, now with only one competitor 
proceeding to operational testing, this is a capability we can 
reasonably expect to procure?
    Answer. According to industry responses to the Request for 
Information that was recently issued to support the Phase II Gen-3 
Acquisition, it appears that potentially two vendors may be capable of 
submitting a compliant proposal. We believe the Phase II procurement to 
be of low risk because of the technology maturity required to be 
accepted.
    Question 1d. How are you maximizing opportunities for competition 
in the procurement process?
    Answer. The Department stresses the importance of establishing and 
maintaining competition through a number of different venues, including 
requirements definition, data rights, market research, acquisition 
planning, and a strong competition advocate program. DHS defines 
requirements at a level that is not vendor-specific, but instead is 
defined in terms of salient characteristics/generic specifications. The 
Department also emphasizes the importance of negotiating sufficient 
data rights for each procurement (with consideration of price a key 
factor) to facilitate future competitions. Strong market research and 
adequate acquisition planning are two additional keys to maximizing 
competition. In this regard, DHS has issued a comprehensive market 
research guide and an expanded Acquisition Planning Guide that have 
both been widely embraced by DHS components.
    The Gen-3 test, evaluation, and acquisition program is flexible and 
promotes industry involvement by providing an initial operational 
capability with the explicit intent of delivering additional improved 
capability incrementally over time. With a sensor and component open 
architecture arrangement, this will allow the Department to consider 
technology insertion appropriately in a cost-effective manner.
    This strategy affords the Department two major benefits--first, the 
ability to deploy a proven Gen-3 capability now to meet current threats 
and risk, while second, encouraging industry to continue improving 
autonomous technology for later insertion into the Gen-3 system.
    DHS also maintains a robust competition advocate program. The DHS 
Competition Advocate, who is a Senior Executive, is responsible for 
ensuring the Department maximizes competition. The DHS Competition 
Advocate works with each component to establish annual competition 
goals, encourages components to attain competition goals, and 
identifies and resolves barriers to competition. As part of this 
effort, the DHS Competition Advocate monitors competition data as 
reported to the Federal Procurement Data System--Next Generation on a 
monthly basis. Quarterly reports are prepared for Competition Advocate 
review, and action, as appropriate. Mid-year reports are provided to 
the Chief Procurement Officer and to the Heads of the Contracting 
Activities regarding year-to-date competitive accomplishments versus 
established goals. Corrective action plans are requested if mid-year 
goals/achievements gaps are greater than 10 percentage points.
    Question 1e. Can you provide a performance rating or other 
documentation of MFSI/Hamilton Sundstrand's performance as a vendor?
    Answer. The answer has been retained in committee files.
    Question 2. When can we expect a cost-benefit analysis to 
strategically justify the Generation 3 acquisition against an analysis 
of a broad set of alternatives?
    Answer. The BioWatch Program, the Department, and outside entities 
have previously conducted analyses of options to provide appropriate 
protection to the U.S. public against the highest-risk biological 
pathogens as determined by the Biological Terrorism Risk Assessment. An 
important conclusion of these analyses has been confirming the 
importance of early detection.
    Because of the inherent characteristics of certain biological 
pathogens and their effects on humans, providing medical 
countermeasures prior to the presence of symptomatic conditions is 
critical to saving lives. Studies have shown this is most effectively 
done through deployment of an early detection system. Other than the 
current BioWatch system and potential BioWatch Generation-3 system, 
there are no other technically mature approaches available for 
alternative consideration and deployment in the foreseeable future.
    This was the same conclusion expressed in the National Academy of 
Sciences (NAS) Report, BioWatch and Public Health Surveillance: 
Evaluating Systems for the Early Detection of Biological Threat. The 
NAS analysis considered the current risk environment, options to 
protect the public, current, and near-term technical capabilities and 
solutions, and appropriate response protocols that would be used.
            national biosurveillance and integration center
    Question 3. Your revised plan for the National Biosurveillance and 
Integration Center incorporates subject matter experts at the National 
laboratories, and data fusion architecture from the Department of 
Defense. What is it about this plan that you believe will enable the 
Office of Health Affairs to get past the major challenge that other 
agencies simply do not want to coordinate with DHS on this issue and 
share information?
    Answer. The Office of Health Affairs (OHA) is in the process of 
developing an emergent strategy for the future of the National 
Biosurveillance Integration System (NBIS) and the center that supports 
it. This process has involved both the retrospective review of relevant 
reports from the Government Accountability Office (GAO), the National 
Biosurveillance Advisory Subcommittee (NBAS), the National Academy of 
Sciences (NAS), and others, as well as the engagement of stakeholder 
groups within and from outside of Government to help identify and craft 
a sound way forward.
    Our ultimate success depends on trust. In a renewed effort to be 
more inclusive, we are taking steps to build upon existing 
relationships while forging new ones with thought leaders. Rather than 
a top-down approach, we are listening intently to the observations of 
engaged stakeholders who share the view that we all need to work 
together to ``get this right''.
    OHA believes it important and appropriate to leverage and reinforce 
the successful investments of others in Government as part of any 
system design. To that end, OHA has been exploring the incorporation of 
tools and expertise from a wide range of Government activities, 
including those at the Department of Defense (DOD) and the National 
laboratories. The emergent strategy will be based on feedback we have 
received and will incorporate elements of outside entities where that 
makes sense. These initiatives are aligned with and designed to 
complement the on-going activities of the National Security Staff (NSS) 
and the Office of Science and Technology Policy (OSTP) with respect to 
the overall state of National biosurveillance.
                           risk communication
    Question 4a. Homeland Security Presidential Directive--10 
(Biodefense for the 21st Century), issued in 2004, called for the 
Department of Homeland Security, in coordination with other appropriate 
Federal departments and agencies, to develop comprehensive coordinated 
risk communication strategies to facilitate emergency preparedness for 
biological weapons attacks. This includes travel and citizen 
advisories, international coordination and communication, and response 
and recovery communications in the event of a large-scale biological 
attack.
    Has a coordinated risk communication strategy for biological 
attacks been issued to date?
    Question 4b. If not, when can we expect to see it?
    Answer. A draft coordinated risk communication strategy for 
biological attacks has been developed by the DHS Office of Public 
Affairs. A ``For Official Use Only'' copy of the draft is attached to 
the main workflow.
    executive order on medical countermeasure distribution after a 
                           biological attack
    Question 5. Please provide the Department's status in implementing 
the Presidential Order on ``Establishing Federal Capability for the 
Timely Provision of Medical Countermeasures Following a Biological 
Attack.'' Traditional points of dispensing (``PODs''), while a critical 
piece of our Nation's medical response, may not be sufficient by 
themselves to meet the time-sensitive need for medical countermeasures 
immediately after exposure to certain biological agents.
    Specifically, considering the short 48-hour window to dispense 
medical countermeasures after an anthrax attack, what is OHA doing to 
ensure DHS employees, first responders, and the general public are all 
protected?
    Answer. DHS Office of Health Affairs has been working closely with 
DHS Component and Offices (Federal Emergency Management Agency (FEMA), 
Policy, Operations Coordination, and others), as well as with Federal 
interagency partners, including Health and Human Services (HHS), 
Department of Defense (DoD), Veterans Affairs (VA), U.S. Postal Service 
(USPS), and Department of Justice (DOJ) to respond to and implement all 
actions called for in Executive Order (EO) 13527.
    Section 2 of the EO directed the establishment of a National U.S. 
Postal Service Medical Countermeasures (MCM) dispensing model for U.S. 
cities to respond to a large-scale biological attack, as well as a plan 
for supplementing local law enforcement personnel with local Federal 
law enforcement and other appropriate personnel, to escort U.S. Postal 
workers delivering MCM. That National Postal Model (NPM) and plan were 
developed and submitted to the National Security Staff (NSS) on June 
30, 2010. Since the approval of the NPM by the NSS, HHS and USPS Joint 
Program Enterprise have continued to develop this capability by 
conducting pilot programs and exercises in Minneapolis/St. Paul, MN and 
Louisville, KY.
    Section 3 of the EO directed the establishment of a rapid Federal 
response capability to augment an affected community's resources to 
dispense medical countermeasures following a biological attack. On 
March 30, 2010, the Secretary of Health and Human Services (HHS) and 
the Secretary of Homeland Security (DHS) submitted a concept document 
(Operational Concepts and Requirements for a Federal Medical 
Countermeasures Rapid Response) to the NSS for review. This resulted in 
the development of a comprehensive operational plan integrating Federal 
Government activities, the Federal Interagency Operational Plan--Rapid 
Medical Countermeasure Dispensing (FIOP-MCM). The FIOP-MCM was 
submitted to the NSS on September 30, 2010.
    The FIOP-MCM documents a concept of operation to provide rapid 
Federal, interagency support for medical countermeasure distribution 
operations within affected communities. This is accomplished through a 
variety of point of dispensing (POD) strategies that utilize mostly 
local Federal employees including the Department of Defense and 
National Guard. The FIOP provides a Federal plan that enhances response 
efforts and can be easily and effectively integrated into State and 
local planning.
    USNORTHCOM presented a Commander's Estimate of DoD capabilities to 
the NSS on June 13, 2011. These capabilities are currently being 
integrated into the existing FIOP-MCM along with updated information 
from our interagency partners to include the Department of Veteran 
Affairs (VA). Validation of this integrated Federal capability to 
support community dispensing operations will culminate in a tabletop 
exercise for Senior Officials that will take place before Sept. 9, 
2011. Subsequently, the updated version of the FIOP-MCM will be 
submitted to the NSS before September 11, 2011.
    Section 4 of the EO addresses the need to ensure that Executive 
branch mission essential functions can continue following a large-scale 
biological attack. A plan was developed and submitted to the NSS on 
June 30, 2010. An implementation plan and considerations for a concept 
of operations were submitted to the NSS on September 30, 2010. In 
follow-up to feedback received from the NSS in January 2011, DHS and 
HHS have co-chaired a Federal interagency working group to develop 
Department and agency plans that meet the specific intent of the EO. 
Seven pilot agencies, as chosen by the NSS, have agreed upon four 
tenets that will serve as the minimal level of engagement across the 
interagency. Planning will initially focus on pilot participants 
including HHS, DHS, Department of Justice (DOJ), USPS, Environmental 
Protection Agency (EPA), VA, and DoD.
DHS Workforce Health Efforts
    OHA has developed a DHS Medical Countermeasures (MCM) Program at 
the direction of Secretary Napolitano to provide emergency antibiotics 
to all DHS employees in the event of a biological attack. Currently, 
OHA has purchased and stockpiled over 6 million tablets of antibiotics 
for DHS employees and individuals in the custody or care of DHS and has 
identified 2 dozen medical storage locations for local MCM stockpiles, 
or ``caches.'' OHA has pre-positioned MCM in these medical storage 
caches around the Nation and is currently exploring options for 
expanding pre-positioned stockpiles to additional storage locations 
throughout the country that will, when achieved, significantly increase 
the efficiencies of MCM distribution to DHS employees.
                            personnel budget
    Question 6. Your fiscal year 2012 budget requests $1.5 million for 
DHSTogether, described as an initiative to ensure that Department 
employees have the tools and resources they need to manage the stress 
inherent to their occupations. Can you please explain what this is, and 
what this money will achieve?
    Answer. DHS' ability to protect the Nation depends upon a healthy 
and operationally ready workforce who must work effectively under 
stressful and demanding conditions. In October 2009, the Office of 
Health Affairs (OHA) was tasked to create a cross-cutting Department of 
Homeland Security (DHS) employee and organizational resilience and 
wellness program. OHA proceeded with a unified ``One DHS'' approach to 
improve consistency and standardization of employee and organizational 
support across the Department through creation of the DHSTogether 
program. In 2010, DHSTogether launched the first-ever DHS-wide employee 
resilience training to be completed by the DHS workforce. Since the 
beginning, this program has proven to be very well received and has 
achieved success across its offerings of trainings, symposia, and 
studies. Moving forward, OHA will utilize an overarching resilience 
framework that will unify existing activities, provide a platform for 
leadership, and build a culture of support. The program will have a 
direct impact on the resiliency and wellness of the DHS workforce and 
provide the resources and information necessary to effectively manage 
the stress associated with protecting the Nation. The annual planning, 
production, and distribution of resilience training and information on 
a Department-wide scale will maximize participation and increase the 
program's ability to effectively improve the resilience of the 
workforce.
    The budget for fiscal year 2012 requests $1.5 million to continue 
DHSTogether initiatives through the following:
DHS Resilience and Wellness Study
$500,000
    DHSTogether will fund a contractor-managed evaluation of current 
programs within the Department and across the Federal Government to 
identify best practices, determine gaps, and identify resources. The 
study will focus on the development of a One-DHS approach to creating 
resilience that takes into account the diversity of DHS and its 
distinct missions and operations. The outcome of this study will be a 
thorough long-term strategic plan aiming to ensure success as well as a 
significant and meaningful increase in employee resilience, wellness, 
and operational readiness.
DHSTogether Communications Plan
$200,000
    Funding for this initiative will support development of a strategic 
communications plan to inform DHS leadership and employees on 
resilience issues and initiatives, including interactive education and 
training materials. Initial communications messages will focus on the 
resources and tools available to assist employees in handling the 
stresses and other challenges that come with protecting the Nation.
DHS-Wide Resilience and Wellness Training
$250,000
    Funding for this initiative will support training, which will 
include the development, production, and delivery of employee and 
supervisor training topics to support DHS readiness and employee 
resiliency, including suicide prevention and risk reduction, resilient 
leadership, and decision-making under stress. Training will incorporate 
resilience and suicide prevention concepts into existing mandatory 
supervisor and Leadership Training Curricula, and will address critical 
incident stress management (CISM) needs throughout the Department.
DHS-Wide Tool for Individual Health Risk Factor Assessment
$400,000
    DHSTogether will fund a contractor-managed individual health risk 
assessment and management tool for DHS employees to individually 
determine the impacts of their lifestyle on their personal health and 
well-being. This health risk factor assessment will allow DHS to better 
understand the education, support, and training needs of our workforce, 
and how to target needs to the appropriate subgroups. By identifying 
the individual health risks of DHS employees, the Department aims to 
make recommendations to improve the health of its workforce, which also 
ensures that our operational readiness will be at the highest capacity 
possible. This initiative also incorporates a uniform data collection 
policy for tracking and measuring resiliency data.
Consistency of DHS Programs and Policies
$150,000
    DHSTogether will fund a comprehensive study to identify and measure 
the impact of existing Departmental policies, procedures, and programs 
that support employee and organizational resilience. The study will 
catalogue best practices and baseline capabilities through leadership 
interviews and a well-being index, and recommend actions to improve 
overall employee resiliency.
          integrated consortium of laboratory networks (icln)
    Question 7. When does OHA anticipate taking over management of the 
ICLN from the S&T Directorate?
    Answer. Per the Technology Transition Agreement (TTA) between the 
Science and Technology Directorate (S&T) and OHA, transition of the 
ICLN to OHA is conditional upon: (1) OHA obtaining funds to support 
ICLN operations; (2) OHA designating Federal staff to assume full-time 
duties of the ICLN Network Coordinating Group (NCG) chairmanship and 
management of the program; and (3) S&T completing functionality of the 
ICLN Integrated Response Architecture (IRA). OHA has identified the 
funds and Federal billet to support transition of the ICLN in fiscal 
year 2012, and S&T is continuing efforts to promote confidence in lab 
networks' analytical capabilities to support other networks in surge 
roles. S&T is practicing the IRA and developing a more facile data 
exchange capability across the Networks, to assure IRA functionality 
prior to transition. Formal transition is currently scheduled for the 
third quarter of fiscal year 2012.
                        first responder guidance
    Question 8. In 2009, DHS published draft guidance for protecting 
emergency responders before and after an anthrax attack. What is the 
status for issuance of the final guidance document?
    Answer. OMB and NSS staff has been working with DHS/OHA to ensure 
the document is responsive to the concerns raised by Federal 
departments and agencies that will be our partners in implementing this 
guidance. OHA is now finalizing the guidance for approval and 
publication. Upon approval, the guidance will posted by DHS on the 
responder community of interest website. Finally, OHA will inform all 
first responder stakeholders that the guidance has been issued. It is 
important to note that in the interim, the draft guidance that was 
initially published for public comment in 2009 should guide first 
responders; no major changes to that guidance are being contemplated.

                                 <all>

</pre></body></html>
